TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT


                       The Implementation of the Five-Year
                       Net Operating Loss Carryback Claim
                       Provisions Were Generally Effective



                                           June 14, 2010

                              Reference Number: 2010-41-070




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                     HIGHLIGHTS


THE IMPLEMENTATION OF THE                           and clear guidance to taxpayers. The IRS
FIVE-YEAR NET OPERATING LOSS                        also issued press releases reminding
CARRYBACK CLAIM PROVISIONS                          taxpayers of upcoming deadlines. When
WERE GENERALLY EFFECTIVE                            TIGTA identified a press release that caused
                                                    confusion regarding due dates for certain
                                                    taxpayers making an election, the IRS
Highlights                                          quickly clarified the information in a revised
                                                    press release.
Final Report issued on June 14, 2010                In most cases, the IRS effectively processed the
                                                    carryback claims. It developed an automated
Highlights of Reference Number: 2010-41-070         tool to ensure taxpayers met the small business
to the Internal Revenue Service                     requirement ($15 million in gross receipts on
Commissioners for the Wage and Investment           average) of the Recovery Act extended NOL
Division and the Small Business/                    carryback provision. There were some
Self-Employed Division.                             programming limitations in the tool; however,
                                                    only a minimal number of claims were affected.
IMPACT ON TAXPAYERS
                                                    While some taxpayers received refunds even
The American Recovery and Reinvestment Act          though primary or flow-through (partnership and
of 2009 (Recovery Act) was passed to provide        S Corporation) returns were not processed or
relief for businesses suffering current economic    not filed, these problems were not significant in
hardships by allowing eligible taxpayers to carry   terms of numbers or dollars.
back a Tax Year 2008 Net Operating Loss
(NOL) to the 5 prior tax years. The Worker,         The IRS developed procedures to identify
Homeownership, and Business Assistance Act          whether Troubled Asset Relief Program
(WHBAA), enacted in November 2009,                  recipients inappropriately claimed the extended
expanded and extended these NOL benefits.           carryback under the WHBAA. Employer
                                                    Identification Numbers are cross-referenced to a
The Internal Revenue Service’s (IRS)                list of Troubled Asset Relief Program recipients.
implementation of these acts and its ability to     If the Employer Identification Number on a claim
timely process associated refunds affects           appears on the Troubled Asset Relief Program
thousands of taxpayers. By the end of Calendar      fund list, the claim is rejected.
Year 2009, the IRS had processed Recovery Act
NOL carryback claims for approximately              One change based on the WHBAA that was
44,000 taxpayers totaling more than $3 billion.     not timely incorporated into forms and
The Joint Committee on Taxation estimated the       publications was that NOLs carried back to
                                                          th
initial costs of the WHBAA extended carryback       the 5 year are limited to 50 percent of the
provision to be up to $33 billion.                  taxable income for that year. IRS officials
                                                    made this change after TIGTA brought it to
WHY TIGTA DID THE AUDIT                             their attention. TIGTA also found that some
The overall objective of this review was to         claims were processed even though they
determine whether the IRS provided adequate         exceeded the 50 percent limitation. Based
information to taxpayers related to Recovery Act    on our review, the IRS promptly issued an
and WHBAA carryback claims and whether the          alert to its employees.
IRS correctly applied the laws’ provisions when     WHAT TIGTA RECOMMENDED
processing these claims.
                                                    TIGTA made no recommendations in this
WHAT TIGTA FOUND                                    report. IRS management agreed with the
Despite the fact that the Recovery Act was          information in the report.
enacted during the filing season, the IRS
helped foster compliance with the extended
NOL carryback provisions by issuing timely
                                                  DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  June 14, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION
                COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Implementation of the Five-Year Net
                                 Operating Loss Carryback Claim Provisions Were Generally Effective
                                 (Audit # 200940136)

 This report presents the results of our review of the implementation of the 5-year Net Operating
 Loss Carryback Claim provision. The overall objective of this was to determine whether the
 Internal Revenue Service (IRS) provided adequate information to taxpayers related to American
 Recovery and Reinvestment Act of 2009 (Recovery Act) 1 and Worker, Homeownership, and
 Business Assistance Act of 2009 2 carryback claims and whether the IRS correctly applied the
 laws’ provisions when processing these claims. This audit was included as part of our Fiscal
 Year 2010 Annual Audit Plan and addresses the major management challenge of Implementing
 Tax Law Changes.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities of IRS programs.
 This audit was conducted using Recovery Act funds.
 IRS management agreed with the information in the report. Management’s complete response to
 the draft report is included as Appendix V.




 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
 2
     Pub. L. No. 111-92, 123 Stat. 2984 (2009).
                             The Implementation of the
                      Five-Year Net Operating Loss Carryback
                     Claim Provisions Were Generally Effective


Copies of this report are also being sent to the IRS managers affected by the report’s finding.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Returns Processing and Account Services), at (202) 622-5916.




                                                                                                  2
                                   The Implementation of the
                            Five-Year Net Operating Loss Carryback
                           Claim Provisions Were Generally Effective




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 6
          Efforts to Implement Necessary Changes to Guidance
          and Procedures Were Generally Effective....................................................Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Example of 5th-Year Carryback Limitation .........................Page 18
          Appendix V – Management’s Response to the Draft Report .......................Page 19
                The Implementation of the
         Five-Year Net Operating Loss Carryback
        Claim Provisions Were Generally Effective




                     Abbreviations

IRS            Internal Revenue Service
NOL            Net Operating Loss
TARP           Troubled Asset Relief Program
WHBAA          Worker, Homeownership, and Business Assistance Act
                                The Implementation of the
                         Five-Year Net Operating Loss Carryback
                        Claim Provisions Were Generally Effective




                                             Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act) 1 became law on
February 17, 2009. It included a provision to extend the Net Operating Loss (NOL) carryback
period from 2 years to up to 5 years for eligible small businesses. The intention was to provide
relief for small businesses suffering current economic hardships by allowing them to recover
taxes paid in previous years. This change applied to individual and business filers as long as an
NOL could be claimed on their return.
Recovery Act benefits related to NOL carryback claims were later expanded and extended by the
Worker, Homeownership, and Business Assistance Act of 2009 (WHBAA). 2 Similar to the
Recovery Act, NOL carryback claims under the WHBAA have a 5-year carryback period.
However, most businesses, 3 regardless of size, are included under the WHBAA.

Carryback claims, absent the recent legislation, are generally carried back only
2 years
Taxpayers who incur significant losses from business activities or natural disasters could be in a
situation in which expenses and deductions exceed their income, resulting in an NOL for the tax
year. Taxpayers can deduct the loss from their income in other tax years. Generally, carryback
claims are applied to the 2 tax years prior to the year of the loss, and any remaining loss can be
carried forward for up to 20 years. Alternatively, taxpayers may decide they do not want to carry
any of the loss back. They can do this by making an irrevocable election to waive the carryback
period. 4 By making this election, the loss may only be claimed on future tax returns.
Even without the Recovery Act provision, the carryback period can be longer under certain
special circumstances. Examples include losses from casualties or thefts. Taxpayers with
carryback claims resulting from either of these situations have a 3-year carryback period.
Qualified disaster losses and farming losses can be carried back 5 years. There are also other
special categories, most of which apply to very specific taxpayers (e.g., Qualified Gulf
Opportunity Zone Losses).


1
  Pub. L. No. 111-5, 123 Stat 115 (2009).
2
  Pub. L. No. 111-92, 123 Stat 2984 (2009).
3
  Most businesses that received Troubled Asset Relief Program funds are excluded from using the 5-year carryback
period.
4
  Taxpayers make this election by attaching a formal statement to the tax return with the loss. The election must be
filed by the due date or extended due date of the return to be valid. In some cases, it is advantageous for the
taxpayer to forgo the carryback period. For example, if the Alternative Minimum Tax is involved, the taxpayer
could apply a loss to a prior year but receive no tax benefit or refund.
                                                                                                             Page 1
                              The Implementation of the
                       Five-Year Net Operating Loss Carryback
                      Claim Provisions Were Generally Effective



For almost all NOL carryback claims, including Recovery Act NOL carryback claims, the full
amount of the loss is carried back and applied to the earliest carryback year. 5 Any remainder is
carried over to the next earliest carryback year and so on until the entire loss is absorbed. For
example, an ordinary business carryback claim for
Tax Year 2008 would be first applied to Tax Year 2006
                                                                  Apart from specific provisions,
(2 years prior). Any loss remaining would then be applied
                                                                   and increasing the carryback
to Tax Year 2007. If the loss is not absorbed in the               period from 2 to 5 years, the
carryback years, the balance can be carried forward and            filing and processing of both
applied to future tax years until fully absorbed, for up to          Recovery Act and WHBAA
20 years. The amount refunded to the taxpayer is the                   claims follow the same
                                                                       procedures as ordinary
difference between what the taxpayer previously paid and
                                                                          carryback claims.
the recalculated tax after the carryback loss is deducted
from the prior years’ profits.
Taxpayers with an NOL have a choice of two methods to file a claim for refund, each of which
has separate rules. One method is to file an Application for Tentative Refund (Form 1045) or
Corporation Application for Tentative Refund (Form 1139), which must be filed within 1 year
after the end of the tax year with the NOL. 6 Either applicable form can be used to file for all of
the carryback years.
The primary advantage of making a claim using Form 1045 or Form 1139 is that the original
return with the NOL does not have to be completely processed by the Internal Revenue Service
(IRS) before the claim can be worked (therefore it is “tentative”). This means the refund can be
issued prior to verification of the posted tax return. The IRS is required to pay interest on
refunds not issued within 45 days. The IRS Accounts Management function applies examination
criteria after the claim is processed.
The second method to file a claim for refund is to file an amended return 7 to make the claim,
although this method is less common. An amended return has to be filed for each carryback year
and must generally be filed within the statutory period of 3 years from the due date of the loss
year return, including extensions. Individual taxpayers are required to compute the NOL on
Schedule A-NOL of Form 1045 and attach it to each amended return. They are also told to enter
“Carryback Claim” on page 1 of the form, to indicate it is a carryback claim. Business taxpayers
are also instructed to attach supporting documentation. The same rules apply for computing and
paying interest for claims not processed within 45 days. In the case of amended returns, the
Accounts Management function applies examination criteria before the claim is processed and
the refund issued.

5
  For WHBAA NOL carryback claims, the amount that is carried back to the 5th year may be limited, as described
later in the report.
6
  Internal Revenue Code Section 6411 (a).
7
  Amended U.S. Individual Income Tax Return (Form 1040X) for individuals or Amended U.S. Corporation Income
Tax Return (Form 1120X) for corporations.
                                                                                                      Page 2
                                The Implementation of the
                         Five-Year Net Operating Loss Carryback
                        Claim Provisions Were Generally Effective



Recovery Act NOL provisions
The Recovery Act was passed to create and save jobs and spur economic activity. Tax benefits
to accomplish these purposes were an important part of the Recovery Act, with the extended
NOL carryback period being one of several tax benefits included in the legislation.
In order to claim the 5-year carryback period allowed by the Recovery Act, the taxpayer must:
    1. Make an election by April 17, 2009, or the extended due date of the return, whichever is
       later. 8 The election can be made by completing amended returns for the “gain” years
       prior to the loss or by completing the Form 1045 for individuals or Form 1139 for
       businesses. For both individuals and businesses using the tentative refund process, the
       application must be made within 6 months from the return due date. The taxpayer can
       elect to choose a 3-, 4-, or 5-year carryback period (we refer to these carryback claims
       under the new provisions as 5-year carryback claims in this report). This election is
       irrevocable.
    2. Meet the eligible small business requirement, which means having gross receipts of less
       than $15 million, averaged over the last 3 tax years. The calculation of the gross receipts
       average can become very complex if the taxpayer has flow-through income from
       partnerships or S Corporations. 9 The IRS developed an automated tool, called the Gross
       Receipts Average Calculator, to make the eligible small business determination and speed
       up the processing of claims.
An example of how a typical calculation over the carryback period might be made is shown in
Figure 1. In this example, the taxpayer has a $38,000 NOL for Tax Year 2008. Assuming the
taxpayer did not average more than $15 million in annual gross receipts for Tax Years 2006
through 2008, the taxpayer would be eligible to claim the 5-year NOL carryback under the
Recovery Act provision. The Tax Year 2008 NOL is carried back against the profit in
Tax Year 2003, giving the taxpayer a refund for taxes previously paid on the profit in that year.
The remaining NOL is used similarly in the ensuing years until it is fully absorbed.




8
  However, if taxpayers filed their return prior to the passage of the law, and had elected to forgo the carryback, they
had to make the election by April 17, 2009.
9
  These business types do not pay income taxes on their income, but pass through profits and losses to their partners
or shareholders.
                                                                                                                Page 3
                                 The Implementation of the
                          Five-Year Net Operating Loss Carryback
                         Claim Provisions Were Generally Effective



               Figure 1: Example of Recovery Act NOL Carryback Calculations

                   Tax Year                       2003     2004       2005      2006     2007       2008
                  Profit/Loss                 $14,000    $13,000     $10,000    $8,000   $5,000   ($38,000)
 Amount of Tax Year 2008 NOL Used             $14,000    $13,000     $10,000    $1,000
      Profit After Carryback Adjustment            $0       $0         $0       $7,000
       Remaining Tax Year 2008 NOL           ($24,000)   ($11,000)   ($1,000)    $0
Source: Treasury Inspector General for Tax Administration example.

WHBAA NOL provision
On November 6, 2009, the WHBAA was signed into law. It expanded and extended tax benefits
that were previously enacted as part of the Recovery Act legislation; among these is the NOL
carryback provision. The WHBAA carryback provision applies to NOLs incurred in either Tax
Year 2008 or 2009 and applies to all individual and business filers with NOLs, not just small
businesses. However, an eligible small business under the Recovery Act legislation may elect to
carryback NOLs from Tax Years 2008 and 2009. The primary changes resulting from the
WHBAA are:
       1. An NOL carried back to the 5th year before the loss year is limited to 50 percent of the
          taxable income for that year (see an example in Appendix IV).
       2. The WHBAA excludes businesses that received Troubled Asset Relief Program
          (TARP) 10 funds from taking advantage of the extended NOL provision.
       3. Most businesses, other than those that received TARP funds, are eligible for the extended
          carryback period regardless of business size.
Apart from the considerations for specific provisions, such as election deadlines and small
business eligibility, and increasing the carryback period from 2 to 5 years, the filing and
processing of both Recovery Act and WHBAA claims follow the same procedures as ordinary
carryback claims. Individuals and businesses generally claim the losses in the same way, using
the Form 1045 or Form 1139 or using amended returns.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia; the Small Business/Self-Employed Division Headquarters in
Washington, D.C.; the Submission Processing Site in Fresno, California; the Integrated
Automation Technologies offices in Atlanta, Georgia, and Ogden, Utah; and with Examination
function employees throughout the country during the period of April 2009 through
February 2010. We conducted this performance audit in accordance with generally accepted

10
     Pub. L. No. 110-343, 122 Stat 3765 (2008).
                                                                                                     Page 4
                           The Implementation of the
                    Five-Year Net Operating Loss Carryback
                   Claim Provisions Were Generally Effective



government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 5
                               The Implementation of the
                        Five-Year Net Operating Loss Carryback
                       Claim Provisions Were Generally Effective




                                      Results of Review

Efforts to Implement Necessary Changes to Guidance and Procedures
Were Generally Effective
The IRS provided timely and clear information to taxpayers related to the special provisions to
claim NOL carryback claims for up to 5 years as provided for in the Recovery Act and the
WHBAA. In general, the IRS also implemented the internal procedures needed to properly
process these carryback claims. As of the end of Calendar Year 2009, the IRS had processed
Recovery Act NOL carryback claims for approximately 44,000 taxpayers, totaling more than
$3 billion. Because the WHBAA provision did not go into effect until late 2009, figures for the
total amount of WHBAA claims were not available during the audit period. However, a Joint
Committee on Taxation report estimated the initial costs of the WHBAA to be up to $33 billion,
with benefits in subsequent years partially offsetting the initial costs (this could occur because
the losses are carried back instead of being carried forward).

Guidance and processing related to Recovery Act NOL carryback claims was
effective
Overall, the IRS implementation of the Recovery Act NOL carryback provision went smoothly.
The IRS issued timely and clear guidance to taxpayers explaining the provision related to the
NOL carryback. The IRS also effectively processed the carryback claims. While some
taxpayers received refunds even when primary 11 or flow-through 12 returns were not filed, these
problems were not significant in terms of numbers or dollars.
Approximately 1 month after the Recovery Act was passed, the IRS issued guidance to taxpayers
on how to claim the extended NOL. 13 Many of the Recovery Act provisions required immediate
implementation, including the provision related to NOL carryback claims. The purpose of the
guidance was to help taxpayers understand the deadlines and procedures for making an election
for the extended NOL carryback. In issuing timely guidance, the IRS helped ensure that eligible
taxpayers, regardless of their filing scenario, had the opportunity to take advantage of the tax

11
   A primary return refers to the taxpayer’s own income tax return.
12
   A flow-through return refers to information returns from partnerships or S Corporations. These business types do
not pay income taxes on their income, but pass through profits and losses to their partners or shareholders. Primary
taxpayers with income or losses from partnerships or S Corporations must include these items on their own returns.
Flow-through income is derived from flow-through returns.
13
   The IRS uses revenue procedures as a means to clarify changes to tax law for the public. The IRS issued Revenue
Procedure 2009-19 on March 16, 2009, to help taxpayers understand the time and manner for making an election to
take the 3-, 4-, or 5-year carryback provided by Section 1211 of the Recovery Act.
                                                                                                            Page 6
                                The Implementation of the
                         Five-Year Net Operating Loss Carryback
                        Claim Provisions Were Generally Effective



benefit. For example, taxpayers that had previously filed a return, but initially elected to forgo
the regular carryback, only had until April 17, 2009, to make an election to take the extended
NOL carryback. Taxpayers that had not filed but made a timely request for an extension to file
could make an election as late as September 15 or October 15, 2009 (for business and individual
filers respectively). The timely issuance of guidance meant that taxpayers could quickly apply
for and receive refunds.
Soon after issuing the guidance, the IRS received claims that had to be rejected because
taxpayers did not follow the required procedures to make a valid election. After promptly
identifying the cause, the IRS issued updated guidance on April 25, 2009. 14 The updated
guidance simplified the election procedures by allowing taxpayers to make an election by
completing the appropriate form and claiming the extended carryback period. Previously, a
statement with specific wording was also required, but taxpayers were not consistently including
this statement. The updated guidance reduced taxpayer burden by helping to minimize rejections
and the need for additional contacts between the IRS and taxpayers.
The IRS took additional actions to ensure taxpayers had enough information on the extended
carryback. The IRS issued a press release reminding taxpayers of upcoming deadlines. When
our auditors identified a press release that caused confusion regarding due dates for certain
taxpayers making an election, the IRS quickly clarified the information in a revised press release.
Further, the IRS developed a web site that contained links to more information for taxpayers,
such as a “Questions and Answers” document and updated forms and instructions.

IRS guidance clearly explained filing and election procedures
The guidance clearly described the election procedures and due dates for taxpayers in certain
situations, helping to ensure taxpayers accurately claimed the tax benefit. Since the Recovery
Act was passed during the filing season, eligible
taxpayers encountered various filing scenarios in
attempting to claim the benefit. Some taxpayers had           Representatives from tax and
already filed their income tax return or carryback           accounting  associations stated
                                                            that the guidance was adequate,
application, while others had previously elected to            timely, and assisted eligible
waive the normal carryback period altogether.                   taxpayers and preparers to
                                                                   claim the benefit.
The forms, instructions, and publications providing
guidance on NOLs properly incorporated the changes
and procedures related to the Recovery Act. For example, Net Operating Losses for Individuals,
Estates, and Trusts (Publication 536) provided a brief explanation of the new law and contained
a link to more detailed information in a “What’s New” section on the cover page.



14
     Revenue Procedure 2009-26.
                                                                                            Page 7
                                  The Implementation of the
                           Five-Year Net Operating Loss Carryback
                          Claim Provisions Were Generally Effective



Representatives from tax and accounting associations that we interviewed as part of our review
stated that the guidance was adequate, timely, and assisted eligible taxpayers and preparers to
claim the benefit.

The IRS effectively processed Recovery Act NOL carryback claims
One of the primary challenges for the IRS in processing Recovery Act NOL carryback claims
was determining whether the taxpayer was a qualifying small business as defined in the
provision. To address this, the IRS developed an automated tool, the Gross Average Receipts
Calculator, to facilitate the processing of carryback claims. The decision to develop the tool was
predicated on the estimated increase in carryback claims and the complexity of the eligibility test
under the law.
Typically, carryback claims are processed by Accounts Management function staff. However, to
qualify for the extended carryback, taxpayers could not average more than $15 million in gross
receipts for the 3-year period ending in 2008. 15 Due to the difficulty in making this
determination, experienced revenue agents examined claims while the tool was being developed.
Once implemented, the Gross Receipts Average Calculator gathered specific information from
the last three tax returns, performed the calculation of the gross receipts, and generated a
conclusion for the processing staff.
In addition to implementing the Gross Receipts Average Calculator, appropriate staffing and
training efforts were planned to ensure timely processing. The IRS researched historical data,
periodically reassessed the volume of claims, and compared annual statistics to monitor
necessary staffing levels.
The Gross Receipts Average Calculator also helped to ensure consistent treatment and review of
carryback claims. Prior to its implementation on May 21, 2009, the IRS tested nearly 140 cases
using the tool that were previously reviewed by revenue agents and determined the results were
consistent. There were some programming limitations encountered in developing the tool. For
example, the tool was unable to compute interest and dividend income and also could not process
claims that had filing status changes from the previous year. However, only a minimal number
of claims were affected.

Some taxpayers received refunds even though returns were either not processed
or not filed
Some taxpayers received Recovery Act refunds when primary or flow-through returns
(partnership and S Corporation returns) were either not processed or not filed. However, this
issue is not unique to Recovery Act NOL carryback returns and was not significant in terms of
numbers or dollars affected. This occurred as a result of business decisions the IRS made about

15
     There is no gross receipts test in standard 2-year NOL carryback processing.
                                                                                            Page 8
                            The Implementation of the
                     Five-Year Net Operating Loss Carryback
                    Claim Provisions Were Generally Effective



processing that balanced the need for timely customer service and for preventing improper
issuance of refunds.
Out of over 12,000 business carryback claims worked through the end of October 2009, we
identified 67 business return cases for which a taxpayer applied for the Recovery Act NOL
carryback, but the IRS had not processed (or the taxpayer had not filed) a Tax Year 2008 return.
The Tax Year 2008 return is important since it supports the NOL carryback claim. The IRS’
acceptance procedures for NOL claims requires the taxpayer to attach a copy of the first two
pages of the loss year return and to state when the return was filed, which should be the date of
the claim or a prior date. For these 67 cases, we did not identify any claims in which these
acceptance procedures were not followed. Most of these carryback claims were processed late in
the calendar year. The IRS stated that these cases should be held for at least 20 cycles (weeks)
prior to contacting the taxpayer. The IRS also updated its internal guidance to reflect this
requirement. The IRS was following its procedures to identify and obtain potentially delinquent
returns related to these cases. If the IRS determines that a tax return is delinquent, procedures
direct employees to contact the taxpayer to obtain the return and, when necessary, reassess the
tax amount that was refunded. We are considering the need for additional audit work in this area
as part of our regular audit planning process.
The IRS stated that in seven cases, taxpayers had actually sent in their returns, but had
improperly submitted the original returns with the application for tentative refund and the return
had never been processed. Taxpayers are specifically cautioned not to send the original return
with the application for tentative refund in both Form 1139 and Form 1045 instructions. The
IRS promptly updated guidance to its employees describing this problem and how to process any
such improperly submitted returns.
We also observed that some taxpayers were claiming losses for which the Gross Receipts
Average Calculator indicated flow-through returns had not been filed. We reviewed a
judgmental sample of 121 such cases for individual returns with flow-through losses. In all but a
few cases, we could verify through additional research that no loss had inappropriately been
claimed, even though the Gross Receipts Average Calculator had indicated that the return was
not filed. In most cases, the flow-through business had not generated the loss claimed by the
taxpayer (either no income or positive income was claimed on the taxpayer return related to the
businesses with the missing returns). In some cases, we determined that the taxpayer had listed
an incorrect Employer Identification Number and consequently the Gross Receipts Average
Calculator had pulled the information for the wrong business. Of the cases we reviewed, only
4 cases with losses amounting to about $1.5 million appeared to be claimed when no underlying
flow-through return had been filed. As previously stated, more than $3 billion in Recovery Act
NOL claims have already been processed as of the end of Calendar Year 2009.




                                                                                            Page 9
                               The Implementation of the
                        Five-Year Net Operating Loss Carryback
                       Claim Provisions Were Generally Effective



Actions taken to implement WHBAA NOL provision was also generally effective
Legislative changes to an already complex tax law as a result of the November 2009 passage of
the WHBAA prompted the IRS to issue initial guidance to taxpayers on November 20, 2009. 16
This timely guidance allowed taxpayers to quickly file a WHBAA NOL claim for
Tax Year 2008.
New rules passed as part of the WHBAA regarding ineligible taxpayers and tax calculation
limitations were properly incorporated in the initial guidance. The IRS also helped foster
compliance with the new laws by reducing potential taxpayer confusion despite concurrent NOL
carryback rule changes. In its guidance, the IRS clearly stated the main differences between the
Recovery Act and the WHBAA. The IRS issued another “Questions and Answers” document,
along with guidance explaining that the gross receipts test no longer applied and noting which
tax year(s) eligible taxpayers could use as the basis for their NOL. For example, the most recent
guidance contains a section of instructions for taxpayers that had filed a carryback application
prior to the enactment of the WHBAA.
However, the IRS was not as quick to incorporate WHBAA changes into instructions for the
Form 1045, Form 1139, or Publication 536. When we discussed the matter with IRS executives,
they stated the changes would be made by the end of March 2010. As of April 7, 2010, all
changes had been made to online and downloadable instructions for Form 1139 and Form 1045
and to Publication 536.
The IRS developed procedures to identify whether TARP recipients inappropriately claimed the
extended carryback. Regular (non-WHBAA) carryback claims normally require a statement on
the tax return indicating the taxpayer’s decision to waive the carryback period. The IRS
developed a similar procedure relating to the TARP provision, requiring taxpayers to attach a
statement to their claim that they did not receive TARP funds. In addition, the Employer
Identification Numbers are cross-referenced against a list of TARP recipients the IRS obtains
from the Department of the Treasury. The list is updated at the IRS on a monthly basis and
contains the names and Employer Identification Numbers of businesses that received TARP
funds or are affiliates of such businesses. If the Employer Identification Number on a claim
appears on the TARP fund list, the claim is rejected. 17
The IRS also developed processing procedures for its employees to help ensure the accuracy of
carryback refunds. Under the WHBAA, an NOL carried back to the 5th year before the loss year

16
 Revenue Procedure 2009-52.
17
 The IRS is developing a special procedure to accommodate the limited exceptions allowed for in the law for
which TARP recipients may still claim the 5-year carryback.




                                                                                                        Page 10
                           The Implementation of the
                    Five-Year Net Operating Loss Carryback
                   Claim Provisions Were Generally Effective



is limited to 50 percent of the taxable income for that year. We reviewed a judgmental sample of
45 cases and determined that 3 claims were processed even though they exceeded the 50 percent
limitation. Based on our review, the IRS promptly issued an alert to employees that some
taxpayers were not limiting the carryback to 50 percent of taxable income or were incorrectly
applying the limit to adjusted gross income rather than taxable income. The alert directed
employees to reject improperly calculated NOL carryback claims. Effective implementation of
this alert to prevent overpaying claims is important considering the estimated $33 billion in
payments that the IRS will be processing.




                                                                                        Page 11
                                 The Implementation of the
                          Five-Year Net Operating Loss Carryback
                         Claim Provisions Were Generally Effective



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective was to determine whether the IRS provided adequate information to
taxpayers related to American Recovery and Reinvestment Act of 2009 (Recovery Act) 1 and
Worker, Homeownership, and Business Assistance Act of 2009 2 carryback claims and whether
the IRS correctly applied the laws’ provisions when processing these claims.
To accomplish this objective, we:
I.         Determined if the IRS provided adequate information to taxpayers related to
           Recovery Act carryback claims.
           A. Determined if legal guidance developed by the IRS was sufficient to implement the
              law by assessing the content and timeliness of the guidance.
           B. Determined if other information developed by the IRS, such as instructions, forms,
              and publications, and information on its web site, included adequate information
              related to the 5-year provision, and specifically to the qualifications for the small
              business requirement. We reviewed the documents to determine if they were
              consistent with legal guidance and contained sufficient information to enable
              taxpayers to understand the new provision.
II.        Determined if the IRS correctly applied Recovery Act provision when processing
           carryback claims. This was focused primarily on the Gross Receipts Average Calculator
           tool. We did not review general carryback claim processing, which has been adequately
           addressed by prior Treasury Inspector General for Tax Administration reports.
           A. Determined if the IRS provided timely and adequate guidance to field employees to
              process the initial claims by reviewing the guidance and interviewing field
              employees.
           B. Determined if the development process for the Gross Receipts Average Calculator
              tool was adequate and if sufficient review and testing was performed prior to
              implementation by interviewing relevant employees and reviewing communications
              and documentation.
           C. Determined if the Gross Receipts Average Calculator tool provided an accurate
              determination of whether the Recovery Act claims met the small business

1
    Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
    Pub. L. No. 111-92, 123 Stat 2984 (2009).
                                                                                              Page 12
                                The Implementation of the
                         Five-Year Net Operating Loss Carryback
                        Claim Provisions Were Generally Effective



             requirement by reviewing system requirements and interviewing employees about
             any weaknesses.
III.     Evaluated the IRS business decision to disregard missing flow-through returns 3 (when
         making the gross receipts average calculation) and, in some instances, missing primary
         returns. 4
         A. To identify the basis for allowing missing flow-through returns, we interviewed
            employees about the decision process relating to flow-through returns. To determine
            the prevalence of this issue, we also reviewed judgmentally selected cases in which
            individual taxpayers had received the Recovery Act carryback and also had
            flow-through income as determined by having filed a Supplemental Income and Loss
            (Schedule E). The Recovery Act data were extracted from IRS Individual Master
            File 5 data. The population for the sample was 11,296 taxpayers as of Cycle 43
            processing (October 26, 2009). We performed a judgmental sample because we
            wanted to identify whether the problem was widespread, but did not intend to project
            to the population. We selected from 11 to 43 cases to review from each of 5 strata
            based on the loss amounts; we selected 100 percent of the cases with losses of
            $5 million or more, which amounted to 54 cases. The total number of cases selected
            was 142, but only 121 taxpayer cases had the necessary Gross Receipts Average
            Calculator prints retained in the IRS Correspondence Imaging System. 6 Of these
            cases, the Gross Receipts Average Calculator identified 61 that had missing
            flow-through returns. Our in-depth review of these cases consisted of reviewing
            various data from the Integrated Data Retrieval System, 7 the Correspondence Imaging
            System, and, in some cases, the paper tax returns.
         B. To identify the basis for allowing missing (unposted) primary returns, we reviewed
            IRS guidance and interviewed IRS employees. In addition, to determine the
            prevalence of missing primary returns, we selected all business taxpayers who had
            received the Recovery Act carryback as of Cycle 43 processing (October 26, 2009)
            and had not yet filed a return for Tax Year 2008 (a total of 12,495 taxpayers). We
            matched these taxpayers with data from our Data Center Warehouse extracts of return
            transactions to identify cases for which business taxpayers had not filed a primary


3
  A flow-through return refers to information returns from partnerships or S Corporations. These business types do
not pay income taxes on their income, but pass through profits and losses to their partners or shareholders. Primary
taxpayers with income or losses from partnerships or S Corporations must include these items on their own returns.
4
  A primary return refers to the taxpayer’s own income tax return.
5
  The IRS database that maintains transactions or records of individual tax accounts.
6
  The Correspondence Imaging System captures and stores images of correspondence from taxpayers including
letters, returned notices, and standard forms.
7
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                           Page 13
                           The Implementation of the
                    Five-Year Net Operating Loss Carryback
                   Claim Provisions Were Generally Effective



           return for Tax Year 2008, yet had received the refund. We manually reviewed
           Integrated Data Retrieval System records to verify that IRS records showed that the
           taxpayers had a filing requirement and had not filed. Through this process, we
           identified 67 cases for which taxpayers had not filed for Tax Year 2008 (or the IRS
           had not processed the return).
       C. To determine the reliability of the population data described in Steps III.A. and B., we
          compared the data we extracted from IRS Master File data to the summary of total
          Recovery Act transactions provided to us by the IRS. Because extraction criteria
          were not exactly the same for the two sets of data, there were some differences;
          however, the differences were not significant.
IV.    Determined if the IRS provided adequate information to taxpayers related to WHBAA
       carryback claims.
       A. Determined if legal guidance developed by the IRS was sufficient to implement the
          law by reviewing and evaluating the guidance.
       B. Determined if other information developed by the IRS, such as instructions, forms,
          and publications, included adequate information related to the 5-year provision in the
          WHBAA by reviewing and evaluating the other information.
V.     Determined if the IRS correctly applied WHBAA provision when processing carryback
       claims.
       A. Interviewed IRS employees regarding the actions they are taking to accommodate the
          new law.
       B. Evaluated the IRS’ plan to ensure carryback claims used in the 5th taxable year are
          limited to 50 percent of taxable income in that year. We reviewed 45 judgmentally
          selected cases to determine if the 5th-year carryback amount was properly limited to
          50 percent of taxable income. We decided to perform a judgmental sample to select
          cases from all sites processing WHBAA claims to identify whether any problems
          were widespread, and with the advance knowledge we would not be projecting the
          results to the population. The cases were selected from a total of 353 cases recorded
          by the IRS as of late January 2010.
       C. Evaluated the IRS’ plan to identify TARP recipients and exclude them from receiving
          the tax benefit.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
                                                                                          Page 14
                           The Implementation of the
                    Five-Year Net Operating Loss Carryback
                   Claim Provisions Were Generally Effective



internal controls were relevant to our audit objective: Wage and Investment Division policies,
procedures, and practices related to processing NOL carryback claims. We evaluated these
controls by interviewing relevant personnel, reviewing relevant guidance and documentation,
and conducting analysis of relevant case files.




                                                                                         Page 15
                          The Implementation of the
                   Five-Year Net Operating Loss Carryback
                  Claim Provisions Were Generally Effective



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Richard J. Calderon, Audit Manager
Mary Jankowski, Lead Auditor
Steven D. Stephens, Senior Auditor
Andrea M. Hayes, Auditor
Mark V. Willoughby, Auditor
Matthew J. Schimmel, Program Analyst
Arlene Feskanich, Information Technology Specialist
Brian W. Hattery, Information Technology Specialist




                                                                                    Page 16
                         The Implementation of the
                  Five-Year Net Operating Loss Carryback
                 Claim Provisions Were Generally Effective



                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:COM
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PRA:PEI




                                                                               Page 17
                                  The Implementation of the
                           Five-Year Net Operating Loss Carryback
                          Claim Provisions Were Generally Effective



                                                                                            Appendix IV

               Example of 5th-Year Carryback Limitation

The IRS provided the following example of the 5th-year NOL carryback limitation related to
claiming the extended carryback period under the WHBAA. 1
            If a taxpayer elects a 5-year carryback, the NOL carried back to the 5th year is
            limited to 50 percent of the taxpayer’s taxable income in 5th preceding year.
            The taxable income is determined for this purpose without reduction by the
            NOL being carried back 5 years or any later NOL.
            For example, assume that in 2003, a taxpayer had taxable income of
            $100 million, before any NOL deductions. The taxpayer had an unused
            2002 NOL of $25 million available to be carried forward to 2003 and an unused
            2004 NOL of $35 million available to be carried back to 2003. After using
            these NOL deductions, the taxable income for 2003 at this time would be
            $40 million ($100 million - $25 million NOL deduction from 2002 -
            $35 million NOL deduction from 2004).
            Now assume that the taxpayer has an NOL of $50 million for the 2008 tax year,
            and the taxpayer elects to carry this loss back to its 5th prior tax year, 2003.
            Based on these facts, the additional NOL deductions allowed for 2003 from the
            carryback of the 2008 NOL would be limited to $20 million, which is
            50 percent of the previously determined taxable income for 2003. Thus, the
            2003 taxable income, following the carryback of the 2008 NOL, would be
            $20 million (the $40 million taxable income determined before consideration of
            the 5-year carryback, reduced by the $20 million NOL deduction attributable to
            the amount carried back from 2008).
          Source: This example was posted on the IRS’ public web site under “Questions and Answers for the
          Worker, Homeownership, and Business Assistance Act of 2009—Section 13 5-year Net Operating Loss
          (NOL) Carryback.”



1
    All years referenced in this appendix are Tax Years.




                                                                                                      Page 18
             The Implementation of the
      Five-Year Net Operating Loss Carryback
     Claim Provisions Were Generally Effective



                                                 Appendix V

Management’s Response to the Draft Report




                                                      Page 19
        The Implementation of the
 Five-Year Net Operating Loss Carryback
Claim Provisions Were Generally Effective




                                            Page 20
